No.

IN THE

SUPREME COURT OF THE UNITED STATES
DAYTON MICHAEL CRAMER,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari
to the Eleventh Circuit Court of Appeals
APPENDIX TO
PETITION FOR WRIT OF CERTIORARI

MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

TABLE OF CONTENTS
Document

Page

1. October 3, 2019, opinion of the Eleventh
Circuit Court of Appeals.. . . . . . . . . . . . . . . A-3
2. Pages 1-3 of June 20, 2018, Judgment
of the Northern District of Florida. . . . . . A-17

A-2

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-12620
Non-Argument Calendar
D.C. Docket No. 4:17-cr-00014-MW-CAS-1
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
DAYTON MICHAEL CRAMER,
Defendant-Appellant.
Appeal from the United States District Court
for the Northern District of Florida
(October 3, 2019)
Before: WILSON, WILLIAM PRYOR, and GRANT,
Circuit Judges.
PER CURIAM:
Dayton Michael Cramer appeals his conviction

A-3

for attempted enticement of a minor to engage in
sexual activity, in violation of 18 U.S.C. § 2422(b).
Cramer argues the district court erred in denying his
motions for judgment of acquittal because his
conviction was based on insufficient evidence. He
also claims his conduct did not violate § 2422(b) as
interpreted by the United States Court of Appeals for
the District of Columbia Circuit. After careful review
of the parties’ briefs and the record, we affirm.
I.
We review de novo a denial of a motion for
judgment of acquittal on sufficiency of the evidence
grounds, viewing the evidence in the light most
favorable to the government and resolving all
reasonable inferences and credibility evaluations in
the government’s favor. United States v. Capers, 708
F.3d 1286, 1296 (11th Cir. 2013). We need not rule

A-4

out every hypothesis of innocence because the “jury
is free to choose among reasonable constructions of
the evidence.” United States v. Peters, 403 F.3d 1263,
1268 (11th Cir. 2005). The jury’s verdict must be
affirmed unless no reasonable trier of fact could have
reached a conclusion of guilt beyond a reasonable
doubt. See United States v. Foster, 878 F.3d 1297,
1304 (11th Cir. 2018).
A conviction under § 2422(b) for attempting to
induce a minor to engage in sexual activities
requires the government to prove the defendant “(I)
had the specific intent to induce a minor to engage in
sexual activity, and (2) took a substantial step
toward the commission of that offense.” United
States v. Stahlman, No. 17-14387, slip op. at 47 (11th
Cir. Aug. 19, 2019). “The statute criminalizes an
intentional attempt to achieve a mental state–– a

A-5

minor’s assent.” United States v. Van Buren Lee, 603
F.3d 904, 914 (11th Cir. 2010) (emphasis in original)
(internal quotation mark omitted). A defendant can
be convicted under § 2422(b) even if he attempted to
exploit a fictitious minor and communicated only
with an adult intermediary. United States v. Gillis,
No. 16-16482, slip op. at 9–10 (11th Cir. Sept. 13,
2019) (per curiam).
Cramer argues the evidence failed to establish
either element because he never had contact with the
fictional minor, Paisley; he traveled to meet only
Paisley’s purported stepmother; and he did not bring
any items or gifts indicating he intended to meet or
have sex with Paisley. Cramer also claims he
unequivocally abandoned his plans to meet Paisley.
Based on the evidence presented at trial, a
reasonable jury could have found that Cramer had

A-6

the requisite intent. With regard to intent, “the
government must prove that the defendant intended
to cause assent on the part of the minor, not that he
acted with the specific intent to engage in sexual
activity.” See Van Buren Lee, 603 F.3d at 914
(emphasis added) (internal quotation mark omitted).
Cramer initiated an online conversation with a
person he believed to be the stepmother of a minor
after reading a post on Craigslist warning that a
stepmother was seeking an older man to give her
13-year-old stepdaughter some “experience.” The
ensuing conversation demonstrates that Cramer
intended to cause Paisley’s assent: Cramer asked
what the stepmother wanted him to teach Paisley,
whether Paisley was a virgin, and whether Paisley
wanted to learn. He said he needed to know that
Paisley wanted to do the things that the stepmother

A-7

wanted her to learn. He said he would not hurt
Paisley and did not want to surprise her. And he said
he did not have a problem with the fact that Paisley
was 13, claiming he had previously engaged in
sexual activity with teens.
Cramer also sent a picture of himself for the
stepmother to show Paisley and then followed up
with an explicit picture of his genitalia. He gave a
detailed and explicit account of what he intended to
do with Paisley, claiming he would go slow, give her
a massage to help her relax, gradually move to
sexual activity, and stop at any point if she wanted
to stop. Finally, Cramer discussed potential meeting
times with the stepmother.
Although Cramer ultimately backed out of
meeting Paisley, sufficient evidence demonstrated
his decision stemmed from his fear that the

A-8

stepmother was associated with law enforcement,
not from a change of heart about pursuing Paisley’s
assent to sexual activity. Indeed, Cramer repeatedly
asked for assurances that the stepmother was not
associated with law enforcement, claiming that was
his “only reluctance in the matter.” He ultimately
agreed to meet the stepmother so she could prove she
was not associated with law enforcement. Cramer’s
decision to meet the stepmother corroborates his
criminal intent because he would not have had
reason to fear her association with law enforcement
unless he intended to pursue Paisley’s assent to
sexual activity. See Van Buren Lee, 603 F.3d at 915
(noting defendant’s concern over whether a
purported mother of two minor daughters was part of
a sting operation helped demonstrate his criminal
intent under § 2422(b)). Therefore, the record

A-9

contains ample evidence that Cramer intended to
induce Paisley’s assent to sexual activity with him.
A reasonable jury also could have found that
Cramer took a substantial step toward causing
Paisley’s assent to engage in sexual activity with
him. A substantial step is an objective act that
marks the defendant's conduct as criminal such that
his actions as a whole strongly corroborate the
required culpability. United States v. Murrell, 368
F.3d 1283, 1288 (11th Cir. 2004). In the context of §
2422(b), “the government must prove that the
defendant took a substantial step toward causing
assent, not toward causing actual sexual contact.”
Van Buren Lee, 603 F.3d at 914. We must evaluate
the totality of Cramer’s conduct to determine
whether the record supports that he took a
substantial step toward inducing a minor to engage

A-10

in sexual conduct. Id. at 916; United States v. Yost,
479 F.3d 815, 820 (11th Cir. 2007) (per curiam).
The totality of Cramer’s conduct demonstrates
he took a substantial step toward inducing Paisley’s
assent to sexual activity, including his
communications with the stepmother, the
photographs he sent, his detailed description of the
sexual acts he planned to do with Paisley, his efforts
to arrange a meeting, and his repeated concerns
about law enforcement. Further, despite backing out
of meeting Paisley, Cramer traveled to an arranged
meeting spot to meet the stepmother and ensure she
was not part of a sting operation.
This court recently held that a defendant’s
travel to meet an intermediary to ensure he was not
affiliated with law enforcement constituted a
substantial step toward inducing a minor to engage

A-11

in sexual activity. See Gillis, slip op. at 5, 10.
In Gillis, the defendant backed out of a planned
meeting with a purported father and his fictional
daughter in part because he was concerned it was a
sting operation. See id. at 5. The father assured the
defendant it was not, and they planned another
meeting so they could show each other they were
“real” before going back to the father’s house to meet
the daughter. Id. We found the defendant took a
substantial step toward inducing a minor’s assent to
sexual activity when he drove to meet the father. Id.
at 10.
Although Cramer and the stepmother did not
prearrange a meeting with Paisley the same day as
their meeting, that is a distinction without difference
because “our precedent and the precedents of many
of our sister circuits hold that [§] 2422(b) prohibits

A-12

attempts to cause minors to agree to engage in
illegal sexual conduct, not attempts to engage in
illegal sexual conduct with minors.” Van Buren Lee,
603 F.3d at 916. Regardless of whether Cramer
anticipated seeing Paisley or engaging in sexual
conduct with her the day of the arranged meeting, a
reasonable jury could have concluded that he crossed
the line from mere “talk” to attempted inducement
when he drove to meet the stepmother. See Gillis,
slip op. at 10; Yost, 479 F.3d at 820. Indeed, it is
difficult to imagine why Cramer would have
arranged a meeting with the stepmother to ensure
she was not affiliated with law enforcement unless
he intended to continue pursuing Paisley’s assent to
sexual activity. Therefore, sufficient evidence
supports Cramer’s conviction.
II.

A-13

Cramer also asks us to endorse the United
States Court of Appeals for the District of Columbia
Circuit’s interpretation of § 2422(b) that
communications with an adult intermediary to
persuade, induce, entice, or coerce a minor are
punishable only if “the defendant’s interaction with
the intermediary is aimed at transforming or
overcoming the minor’s will in favor of engaging in
illegal sexual activity.” See United States v. Hite,
769 F.3d 1154, 1160 (D.C. Cir. 2014). But this court
has already rejected that interpretation of § 2422(b).
See Murrell, 368 F.3d at 1287.
In Murrell, we considered the meaning of the
term “induce” for purposes of § 2422 when deciding
whether a defendant could be convicted for inducing
a minor to engage in illegal sex acts by
communicating only through an adult intermediary.

A-14

See 368 F.3d at 1287. Our court acknowledged
“induce” could mean “‘to lead or move by influence or
persuasion; to prevail upon,’ or alternatively, ‘to
stimulate the occurrence of; cause.’” Id. (alterations
accepted) (quoting The Am. Heritage Dictionary of
the English Language 671 (William Morris ed., 1st
ed. 1981)). We endorsed the latter definition because
the former would essentially render the term
“persuade” superfluous. See id. Therefore, our
binding precedent1 forecloses a reading of the statute
that would make interactions with an adult
intermediary punishable only if such interactions
were aimed at transforming or overcoming the

1

Under this court’s prior panel precedent rule, a prior
panel’s holding is binding on all subsequent panels unless
and until it is overruled by the Supreme Court or by this
court sitting en banc. United States v. Michael Lee, 886
F.3d 1161, 1163 (11th Cir. 2018), petition for cert. filed,
(U.S. July 23, 2019) (No. 19-5331).

A-15

minor’s will in favor of sexual activity.
Accordingly, we affirm Cramer’s conviction.

A-16

UNITED STATES DISTRICT COURT
Northern District of Florida
UNITES STATES OF AMERICA
v.
DAYTON MICHAEL CRAMER
AMENDED1
JUDGMENT IN A CRIMINAL CASE
Case Number:

4:17CR00014-001

USM Number:

25543-017

R. Timothy Jansen (Retained)
Defendant’s Attorney

THE DEFENDANT:
__ pleaded guilty to count(s)_______________________

1

Amended to include forfeited items listed on Page 8 and
9 of the Judgement filed on 6/15/18 pursuant to [79]
ORDER GRANTING [77] MOTION TO CORRECT
JUDGMENT.

A-17

__ pleaded nolo contendere to count(s)______________
which was accepted by the court.
X was found guilty on count(s) 1 on March 21, 2018
after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:
Title & Section
18 U.S.C. § 2422(b)
Nature of Offense
Enticement of a Minor to Engage in Sexual Activity
Using Interstate Commerce
Offense Ended
February 14, 2017
Count
1
The defendant is sentenced as provided in pages
2 through 9 of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.

A-18

__ The defendant has been found not guilty on
count(s) _________________________________________
__ Count(s) ___________ __ is __ are dismissed on the
motion of the United States.
It is ordered that the defendant must notify the
United States attorney for this district within 30 days
of any change of name, residence, or mailing address
until

all

fines,

restitution,

costs,

and

special

assessments imposed by this judgment are fully paid.
If ordered to pay restitution, the defendant must notify
the court and United States attorney of material
changes in economic circumstances.
June 15, 2018__________________
Date of Imposition of Judgment
s/Mark E. Walker_______________
Signature of Judge

A-19

Mark E. Walker, United States District Judge
Name and Title of Judge
06/20/2018_________________________________
Date

IMPRISONMENT
The defendant is hereby committed to the
custody of the United States Bureau of Prisons to be
imprisoned for a total term of: 120 months as to
Count 1.
X The court makes the following recommendations
to the Bureau of Prisons:
1. BOP designation at FCI Jessup, Georgia, first,
2. BOP designation at FCI Coleman, Florida, second.
X The defendant is remanded to the custody of the
United States Marshal.

A-20

__ The defendant shall surrender to the United
States Marshal for this district:
__ at ___________________ __ a.m. __ p.m. on _______.
__ as notified by the United States Marshal.
__ The defendant shall surrender for service of
sentence at the institution designated by the Bureau
of Prisons:
__ before 2 p.m. on _______________.
__ as notified by the United States Marshal.
__ as notified by the Probation or Pretrial Services
Office.

RETURN
I have executed this judgment as follows:
Defendant delivered on ___________
to___________
at _____________, with a certified copy of this

A-21

judgment.
_____________________________________
UNITED STATES MARSHAL
By __________________________________
DEPUTY UNITED STATES MARSHAL

SUPERVISED RELEASE
Upon release from imprisonment, the defendant
shall be on supervised release for a term of: 10 years
as to Count 1.

MANDATORY CONDITIONS
1. You must not commit another federal, state or
local crime.
2. You must not unlawfully possess a controlled
substance.
3. You must refrain from any unlawful use of a

A-22

controlled substance. You must submit to one drug
test within 15 days of release from imprisonment
and at least two periodic drug tests thereafter, as
determined by the court.
X The above drug testing condition is
suspended, based on the court’s determination that
you pose a low risk of future substance abuse. (check
if applicable)
4. __ You must make restitution in accordance with
18 U.S.C. §§ 3663 and 3663A or any other statute
authorizing a sentence of restitution. (check if
applicable)
5. X You must cooperate in the collection of DNA as
directed by the probation officer. (check if applicable)
6. X You must comply with the requirements of the
Sex Offender Registration and Notification Act (42
U.S.C. § 16901, et seq.) as directed by the probation

A-23

officer, the Bureau of Prisons, or any state sex
offender registration agency in which you reside,
work, are a student, or were convicted of a qualifying
offense. (check if applicable)
7. X You must participate in an approved program
for domestic violence. (check if applicable)
You must comply with the standard conditions that
have been adopted by this court as well as with any
other conditions on the attached page.

A-24

